REBECCA A. WATKINS
Licensed in Oregon & Washington
Direct Dial: 503.595.2134
rwatkins@sbhlegal.com

September 13, 2021
VIA ELECTRONIC FILING ONLY
Scott. S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Motion to Extend Time to Respond to Petition for Writ of Certiorari
Shantubhai N. Shah v. Meier Enterprises, Inc.
Docket No. 21-214

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent Meier Enterprises, Inc.
moves for a thirty-day extension of time for filing its brief in opposition to the
Petition for Writ of Certiorari in the captioned matter.
Petitioner filed a Petition for Writ of Certirari on August 7, 2021, and served
Respondent via US Mail. Petitioner did not notify Respondent when the case had
been placed on docket; however, Respondent received electronic notification of your
August 13, 2021 letter to the Ninth Circuit via the electronic filing system. Based on
that letter, Respondent has calculated its deadline to file a response to the petition
as September 13, 2021.
Petitioner, who is no longer represented by counsel, submitted a petition
along with an appendix of over 170 pages of assorted documents. Respondent
believes the petition and appendix contain mischaracterizations of the record that
add to the complexity of a response. In addition, counsel’s application for admission
was just approved last Friday, on September 10, 2021, and counsel was unable to
submit a brief for printing in conformance with Rule 33 before being admitted. Due
to these issues, Respondent requests additional time to complete, print and file its
objection to the Petition for Writ.

•1200 SW Main Street • Portland, OR 97205-2040 • Tel.: 503.225.5858 • Fax: 503.721.9272 •
• www.sbhlegal.com •
4280000046

Page | 2
Scott Harris, Clerk of the Supreme Court
Re: Docket No. 21-214
Respondent respectfully asks for a thirty-day extension of time to submit its
response to the Writ for Certiorari.
Sincerely,
/s/ Rebecca A. Watkins
Rebecca A. Watkins
Counsel of Record for Respondent
RW:tab
cc:
Mr. Shantubhai Shah, via email and US Mail

4280000046

